    DEMOGRAPHIC DATA SUPPORTING THE DOD MILITARY
    RETIREMENT HEALTH BENEFITS LIABILITY ESTIMATE


Report No. D-2000-194                  September 29, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DEERS                 Defense Enrollment Eligibility Reporting System
MRHB                  Military Retirement Health Benefits
USFHP                 Uniformed Service Family Health Plan
                       Office of the Inspector General, DoD
Report No. D-2000-194                                               September 29, 2000
 (Project No. D2000FA-0042)

       Demographic Data Supporting the DoD Military Retirement
                  Health Benefits Liability Estimate

                                Executive Summary

Introduction. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” and Public Law 103-356, the “Federal Financial
Management Act of 1994.” Public Law 103-356 requires DoD and other Government
agencies to prepare financial statements for FY 1996 and each succeeding year. The
unfunded liability amount calculated by the Office of the Actuary, DoD, and reported
on the FY 1999 DoD Agency-Wide financial statements was $196.2 billion, which
represents 20 percent of the $998.9 billion of total liabilities reported for FY 1999.
Military retirement health benefits are post-retirement benefits that DoD provides to
military retirees and other eligible beneficiaries through the Tricare program, consisting
of DoD military treatment facilities and civilian providers, also known as purchased
care. The demographic extract from the Defense Enrollment Eligibility Reporting
System, dated September 30, 1998, used for estimating the liability identified
8.4 million medically eligible beneficiaries, of which 4.6 million were retiree
beneficiaries, out of a total 23 million beneficiary records within the Defense
Enrollment Eligibility Reporting System.

Objectives. The objective of the audit was to assess the reliability and completeness of
the demographic data used to calculate the DoD military retirement health benefits
liability. Specifically, we reviewed data from extracts of the Defense Enrollment
Eligibility Reporting System used for estimating the liability. We also reviewed the
management controls related to the objective. A future report will contain our coverage
of the management control program.

Results. The Office of the Actuary, DoD, received incorrect demographic data to
develop the military retirement health benefits liability estimate. The demographic data
used to calculate the liability included at least 712,174 beneficiaries who should not
have been included or who were miscoded. Specifically:

       •   232,749 beneficiaries should not have been included in the extract because
           they were non-DoD beneficiaries or disabled American veterans who receive
           care through the Department of Veterans Affairs;

       •   396,299 beneficiaries were miscoded as not retired, but were retired
           reservists;
       •   83,126 beneficiaries were Uniformed Service Family Health Plan
           beneficiaries who receive their care from civilian health care networks,
           which are calculated differently than military treatment facility direct care
           for purposes of calculating the liability estimate; and

       •   the demographic data extract from the Defense Enrollment Eligibility
           Reporting System was prepared with an incorrect cutoff date.

As a result, the military retirement health benefits liability estimate was overstated by
approximately $2.1 billion, as estimated by the Office of the Actuary, DoD. The
Office of the Actuary, DoD, was unsure of the effect that the incorrect cutoff date had
on the military retirement health benefits liability estimate. See the Finding section for
details of the audit results.

Summary of Recommendation. We recommend that the Under Secretary of Defense
for Personnel and Readiness document the process for calculating the military
retirement health benefits liability estimate, including the data requirements and
coordination necessary to obtain and use reliable data.

Management Comments. The Office of the Actuary, DoD, concurred with the
finding and recommendation, stating that it is in the process of preparing the necessary
documentation to support the military retirement health benefits liability estimate and
the data collection procedures. Management also indicated that it has already taken
action to correct the DEERS data errors in the September 30, 1999, data extracts. See
the Finding section for a discussion of management comments, and the Management
Comments section for the text of the comments.




                                            ii
Table of Contents

Executive Summary                                                      i


Introduction
     Background                                                        1
     Objectives                                                        2

Finding
     Demographic Data Supporting the DoD Military Retirement Health
       Benefits Liability Estimate                                     3

Appendixes
     A. Audit Process
          Scope and Methodology                                        8
          Prior Coverage                                               9
     B. Report Distribution                                           11

Management Comments
     Office of the Actuary, DoD                                       13
Background
    Requirements for Financial Statements. Public Law 101-576, the “Chief
    Financial Officers Act of 1990,” November 15, 1990, as amended by Public
    Law 103-356, the “Federal Financial Management Act of 1994,” October 13,
    1994, requires DoD and other Government agencies to prepare financial
    statements. The Inspector General, DoD, is responsible for auditing the DoD
    Agency-Wide financial statements. The General Accounting Office is
    responsible for auditing the consolidated Federal Government financial
    statements.

    Office of Management and Budget Guidance. Office of Management and
    Budget Bulletin No. 97-01, “Form and Content of Agency Financial
    Statements,” as amended on November 20, 1998 (the Bulletin), provides
    guidance to agencies on the preparation of financial statements. The Bulletin
    establishes guidance for reporting pensions, other retirement benefits, and other
    post-employment benefits. Other retirement benefits include all retirement
    benefits other than pension plan benefits. The Bulletin further states that the
    entities responsible for accounting for other retirement benefits should calculate
    and report the liabilities and related expenses in accordance with Statement of
    Federal Financial Accounting Standards No. 5, “Accounting for Liabilities of
    the Federal Government,” September 1995.

    Military Retirement Health Benefits. Military retirement health benefits
    (MRHB) are post-retirement benefits that DoD provides to military retirees and
    other eligible beneficiaries through the Tricare program, consisting of DoD
    military treatment facilities and civilian providers, also known as purchased
    care. Eligible beneficiaries may obtain medical care from the private sector
    under Tricare Standard, Extra, or Prime healthcare programs.

    Materiality of Liability. FY 1997 was the first year that DoD reported the
    unfunded liability for the MRHB on the DoD Agency-Wide financial statements.
    For FY 1999, the liability amount reported by the Office of the Actuary, DoD
    (the Actuary), was $196.2 billion. The $196.2 billion liability is 20 percent of
    the $998.9 billion of liabilities reported on the FY 1999 DoD Agency-Wide
    financial statements.

    Defense Enrollment Eligibility Reporting System. The Defense Enrollment
    Eligibility Reporting System (DEERS) is a repository of information for
    approximately 23 million beneficiaries and is managed by the Defense
    Manpower Data Center. DEERS is used for many purposes within DoD, such
    as budgeting for military health care and determining Tricare contract rates.
    The Actuary used selected DEERS demographic data (referred to as the extract)
    dated September 30, 1998, for estimating the FY 1999 liability for MRHB. The
    September 30, 1998, extract included 8.4 million DoD beneficiaries, of which
    4.6 million were retirees, dependents, and survivors eligible for health care out
    of 23 million beneficiaries in DEERS.



                                         1
Objectives
     The objective of the audit was to assess the reliability and completeness of the
     demographic data used to calculate the DoD MRHB liability. Specifically, we
     reviewed data from the DEERS extract used for estimating the liability.
     Additionally, we reviewed the management controls related to the objective. A
     future report will contain our coverage of the management control program.
     See Appendix A for a discussion of the audit scope and methodology, and a
     summary of prior audit coverage related to the audit objectives.




                                         2
           Demographic Data Supporting the DoD
           Military Retirement Health Benefits
           Liability Estimate
           The Actuary received incorrect demographic data from the DEERS to
           develop the MRHB liability estimate. The demographic data used to
           calculate the liability included at least 712,174 beneficiaries who should
           not have been included or who were miscoded. Also, the DEERS
           demographic database extract reflected an incorrect cutoff date. The
           data and cutoff dates were incorrect because the Actuary had no specific
           formal documented requirements for preparing the DEERS database
           extract for use in estimating the MRHB liability. As a result, the MRHB
           liability estimate was overstated by approximately $2.1 billion, excluding
           any effect by the incorrect cutoff date, as estimated by the Actuary.



DEERS Demographic Database Extract
    Calculating the MRHB Liability Estimate. The Actuary calculated the
    MRHB liability estimate using data from numerous sources, including cost and
    workload data from military treatment facilities (direct care), claims data from
    purchased care information systems, and demographic data from DEERS on
    DoD beneficiaries eligible for health care. The Actuary calculated a liability
    estimate for direct care and purchased care, and the total was the estimated
    liability. The Actuary relied on two contractors to develop the estimate. The
    first contractor collected and prepared data, and the second (actuarial) contractor
    calculated the estimate. The first contractor obtained the basic data needed,
    including DEERS demographic data, and manipulated the data into output files
    provided to the actuarial contractor. The actuarial contractor used the output
    files to calculate the MRHB estimate, using additional actuarially determined
    factors and methods. Accurate DEERS demographic data are important to the
    overall accuracy of the estimate because the data are used to determine the
    demographic categories, such as age groups, that are important to the
    calculation.

    Use of the DEERS Extract. The extract of 8.4 million beneficiaries consisted
    of 4.6 million retirees, dependents, and survivors and 3.8 million active and
    dependent beneficiaries. The extract portion of active beneficiaries is not used
    in the calculation of the MRHB liability. However, the first contractor obtained
    and used the active beneficiary extract portion to create an output file, and the
    actuarial contractor received the extract portion for sensitivity analysis purposes
    only. The extract portion of 4.6 million retirees, dependents, and survivors was
    used for two major purposes. First, it was used to draw conclusions about the
    average number of dependents per sponsor and the distribution of various other
    demographic categories. Secondly, the retiree extract portion was used directly
    in the calculation of the retiree portion of the liability, as well as indirectly in

                                         3
     the calculation of the active and reserve beneficiaries portion of the liability.
     For example, the demographic data for retirees, such as age and paygrade, were
     directly used to assign workload and cost to segments of the population.

     Extract Preparation. The Defense Manpower Data Center prepared a DoD
     beneficiary extract from the DEERS database for use in calculating the MRHB
     liability estimate included in the DoD Agency-Wide financial statements. The
     Actuary requested the extract. The DEERS extract provided demographic
     information on approximately 8.4 million DoD beneficiaries eligible for health
     care as of September 30, 1998. The Actuary requested that the extract include
     only DoD beneficiaries eligible for health care as of September 30 of the
     analysis year from the DEERS database that contains information on 23 million
     people. Included in the extract were the beneficiary’s date of birth and
     relationship to the sponsor and the sponsor’s status, service, paygrade,
     component, and disability status.

     DoD Beneficiaries Eligible for Health Care. The methodology for calculating
     the MRHB liability estimate defines an eligible beneficiary as active-duty or
     retired military members, also known as sponsors, and their dependents and
     survivors. Survivors are beneficiaries of retired military personnel who are
     deceased. An eligible beneficiary is a person entitled to health care through
     DoD and whose health care is funded by DoD. A sponsor is the military
     Service member whose service entitles his or her dependents to health care.
     Sponsors are also considered beneficiaries and include both living military
     Service members and deceased members with survivors eligible for DoD health
     care. The DEERS database includes coding to identify the eligibility of
     beneficiaries.



Inclusion or Identification of Beneficiaries
     The Actuary received incorrect demographic data to develop the MRHB liability
     estimate. The 4.6 million retiree, dependent, and survivor portion of the
     8.4 million beneficiary extract included at least 712,174 beneficiaries who
     should not have been included or who were identified or coded incorrectly. The
     following table summarizes the number of incorrect beneficiaries, by category.




                                         4
              Retiree Beneficiaries Erroneously Included or Identified
         Beneficiary Category                                    Number of Beneficiaries
    Non-DoD beneficiaries1                                                143,608
    Disabled American veterans                                              89,141
    Uniformed Service Family Health Plan                                   83,126
    Miscoded reservists2                                                  396,299
      Total                                                               712,174
1
    Of the non-DoD beneficiaries, 66,932 beneficiaries, which include 1,988 DoD civilians,
    were identified and removed by the first contractor before sending to the actuarial
    contractor.
2
    The 396,299 miscoded reservists were later identified by the actuarial contractor and
    included in the calculation.



Non-DoD Beneficiaries. The 143,608 non-DoD beneficiaries were included in
the extract because instructions from the data collection contractor were not
clear, and the Defense Manpower Data Center misunderstood the instructions
and did not appropriately code or exclude the non-DoD beneficiaries from the
extract. The 143,608 beneficiaries were coded in the DEERS extract as “other
service” beneficiaries. The “other service” classification refers to any service
other than the Army, Navy, Air Force, and Marines, and includes beneficiaries
whose service is unknown in DEERS. Specifically, the extract erroneously
included the following as DoD health care eligible beneficiaries: members from
the United States Public Health Service, the National Oceanic and Atmospheric
Administration, the Coast Guard, military personnel of foreign countries serving
in the United States, and miscellaneous other beneficiaries. The miscellaneous
other beneficiaries consisted of Red Cross beneficiaries, civilians, and
unknowns. Beneficiaries from the United States Public Health Service, the
Coast Guard, and the National Oceanic and Atmospheric Administration and
foreign military members are entitled to receive military-related benefits,
including health care, and therefore are part of the DEERS database. However,
the beneficiaries should have been excluded or identified properly in the DEERS
extracts because their health care is not funded by DoD but is provided on a
reimbursable basis by their respective organizations.

Disabled American Veterans. The DEERS beneficiary extract incorrectly
included 89,141 disabled American veteran beneficiaries. Disabled American
veterans receive their health care and other benefits through the Department of
Veterans Affairs, and in some cases they receive medical care at a DoD military



                                              5
    treatment facility. When a disabled American veteran receives care at a DoD
    military treatment facility, the Department of Veterans Affairs reimburses the
    cost of care to DoD.

    Uniformed Service Family Health Plan. In previous estimates, the Actuary
    treated 83,126 Uniformed Service Family Health Plan (USFHP) beneficiaries as
    part of the DoD military treatment facility direct-care element, when the
    beneficiaries should have been identified and treated similarly to purchased care.
    The USFHP was established in 1981 and is available to active-duty family
    members, retirees, and their families. Beneficiaries enrolled in the USFHP
    program do not receive direct care from military treatment facilities; instead,
    they receive all their care from selected civilian health care facilities.

    Miscoded Reservists. The DEERS extract included 235,864 retired reservist
    sponsors who were miscoded as not being retired, and 160,435 dependents who
    were identified with the sponsors and consequently were miscoded, for a total of
    396,299 miscoded reservists and dependents. The Actuary and contractor did
    not detect the miscodings in the DEERS extract. The output file based on the
    DEERS extract was sent to the actuarial contractor, who later identified the
    miscoded beneficiaries and appropriately included and categorized them in the
    liability calculation.



Cutoff Date
    The DEERS beneficiary extract was to be as of September 30, 1998, for
    actuarial projection purposes. However, 9,246 birth dates in the extract were
    after September 30, 1998. The Defense Manpower Data Center explained that
    the 9,246 birth dates were not errors in DEERS, but rather the Defense
    Manpower Data Center did not generate an extract as of September 30, 1998, as
    the Actuary had requested. The extract was a quarterly extract file, not from
    September 30, 1998, but a real-time data extract from December 8, 1998. The
    Actuary was unsure of the effect on the MRHB liability estimate. The Actuary
    requested the extracts for a specified date to be consistent with all cost and
    workload data. The Actuary must be able to project forward from a specific,
    agreed-upon cutoff date to estimate the liability.



Written Agreement
    The requirements for the DEERS data extract were not effectively
    communicated. The Actuary did not develop a clear, documented request that
    explained the requirements in detail for the Defense Manpower Data Center. In
    addition, no memorandum of agreement or other documentation described the
    responsibilities of each office involved in developing the liability estimate. The
    Office of the Actuary needs a formal, documented process that describes the

                                        6
    data requirements, responsibilities, and methods used to calculate the liability
    estimate. Based on the current practice of e-mails; telephone calls; and the
    annual meeting between the Actuary, its contractors, and the Defense
    Manpower Data Center, requirements were misinterpreted. Examples of
    ineffective communication were the actuarial treatment of beneficiaries in the
    USFHP program and the incorrect cutoff date. The Actuary initiated actions to
    document future data requests formally and effectively.



Actuary’s Estimate
    The Actuary, DoD, estimated that the MRHB liability estimate was overstated
    by approximately $2.1 billion. The effect related to the inclusion of non-DoD
    beneficiaries and disabled American veterans was an overstatement of
    $0.2 billion. The effect from mishandling USFHP beneficiaries was an
    overstatement of $1.9 billion. The miscoded reservists did not affect the
    liability estimate; they were identified by the actuarial contractor before the
    calculation. Therefore, the total effect was an overstatement of $2.1 billion.
    However, the Actuary, DoD, was unsure of the effect that the incorrect cutoff
    date had on the MRHB liability estimate.



Recommendation and Management Comments
    We recommend that the Under Secretary of Defense for Personnel and
    Readiness develop and implement a documented process for calculating the
    military retirement health benefits liability estimate, including the data
    requirements and coordination steps between the Defense Manpower Data
    Center; the Assistant Secretary of Defense (Health Affairs); and the Office
    of the Actuary, DoD, to obtain and use appropriate, reliable data.

    Management Comments. The Office of the Actuary, DoD, concurred and
    stated that it is in the process of preparing the necessary documentation to
    support the MRHB liability estimate and the data collection procedures. These
    efforts are scheduled to be completed by September 30, 2000. The Office of the
    Actuary, DoD, has also taken action to correct the DEERS data errors identified
    for the September 30, 1999, data extracts.




                                        7
Appendix A. Audit Process

Scope and Methodology
    Work Performed. Our audit focused on the review of demographic
    information supporting the September 30, 1998, DEERS demographic extract
    prepared for the calculation of the FY 1999 MRHB liability estimate. In
    addition, we performed various queries of the DEERS extract to identify
    anomalies and potential problems. The September 30, 1998, DEERS extract
    included approximately 8.4 million beneficiaries of the total 23 million
    beneficiaries in the Defense Manpower Data Center DEERS database.

    We reviewed DoD retiree records from the National Personnel Records Center
    in St. Louis, Missouri, to determine and confirm sponsors’ eligibility and the
    reliability of the sponsor information contained in the September 30, 1998,
    DEERS extract used to estimate the liability. We also worked with
    Defense Manpower Data Center -West in Seaside, California, to obtain
    additional information on beneficiaries in the September 30, 1998, DEERS
    extract. The Actuary worked with us to obtain and analyze data. In addition,
    we reviewed the details of the query that the Defense Manpower Data Center
    developed and executed to provide the demographics used to estimate the
    MRHB liability.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           •    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •    FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •    FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)




                                         8
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Financial Management Functional Area. Objective: Reengineer
             DoD business practices. Goal: Improve data standardization of
             finance and accounting data items. (FM-4.4)

           • Financial Management Functional Area. Objective: Strengthen
             internal controls. Goal: Improve compliance with the Federal
             Managers’ Financial Integrity Act of 1982. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. We used computer-processed data that the
    Actuary and contractor personnel used to calculate the MRHB liability estimate.
    We assessed the data as they pertained to the development and execution of the
    DEERS extract provided to the Actuary. We did not assess the reliability of
    data in the DEERS database, which will be addressed in a later audit report.
    However, not assessing the reliability of DEERS data did not materially affect
    the results of this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 1999 through May 2000 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Prior Coverage
Inspector General, DoD
    Inspector General, DoD, Report No. D-2000-141, “Reporting of the FY 1999
    Military Retirement Health Benefits Liability in the DoD Financial Statements,”
    June 9, 2000.

    Inspector General, DoD, Report No. D-2000-090, “Inpatient Data Supporting
    the DoD Military Retirement Health Benefits Liability Estimate,”
    March 1, 2000.




                                       9
Inspector General, DoD, Report No. CIPO2000S001, “Evaluation of the
Criminal Investigative Environment in Which the Defense Enrollment Eligibility
Reporting System Operates,” January 7, 2000.

Inspector General, DoD, Report No. 99-127, “Data Supporting the FY 1998
DoD Military Retirement Health Benefits Liability Estimate,” April 7, 1999.

Inspector General, DoD, Report No. 99-010, “DoD Military Retirement Health
Benefits Liability for FY 1997,” October 13, 1998.




                                  10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
     Director for Accounting Policy
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)
  Chief Actuary, Office of the Actuary, DoD
  Director, Defense Manpower Data Center
Director, Defense Logistics Studies Information Exchange

Department of the Army
Surgeon General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Surgeon General, Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center




                                          11
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  Accounting Information Management Division

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       12
                 Office of the Actuary, DoD, Comments




∗




    ∗
    Omitted because of length. Copies will be provided upon request.

                                                           13
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     F. Jay Lane
     Salvatore D. Guli
     Charles J. Richardson
     Walter R. Loder
     Bryan K. Kitchens
     C.R. Thompson
     Walter Gaich
     Charles Mordecai
